<html>
<title> - EVALUATING PORT SECURITY: PROGRESS MADE AND CHALLENGES AHEAD</title>
<body><pre>[Senate Hearing 113-783]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-783

      EVALUATING PORT SECURITY: PROGRESS MADE AND CHALLENGES AHEAD

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              JUNE 4, 2014

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

       
                      U.S. GOVERNMENT PUBLISHING OFFICE
90-915 PDF                 WASHINGTON : 2016                      
________________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbacbba48ba8beb8bfa3aea7bbe5a8a4a6e5">[email&#160;protected]</a>  
       
       
       
   
       
       
       
       
       
       
       COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin. Staff Director
               John P. Kilvington, Deputy Staff Director
                    Mary Beth Schultz, Chief Counsel
           Jason M. Yanussi, Senior Professional Staff Member
          Jason T. Barnosky, Senior Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
               Andrew C. Dockham, Minority Chief Counsel
                  Patrick J. Bailey, Minority Counsel
           Mark K. Harris, Minority U.S. Coast Guard Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator Ayotte...............................................    13
Prepared statements:
    Senator Carper...............................................    39
    Senator Coburn...............................................    41

                               WITNESSES
                        Wednesday, June 4, 2014

Ellen McClain, Deputy Assistant Secretary for Transborder Policy, 
  Office of Policy, U.S. Department of Homeland Security.........     5
Rear Admiral Paul F. Thomas, Assistant Commandant for Prevention 
  Policy, U.S. Coast Guard, U.S. Department of Homeland Security.     6
Kevin K. McAleenan, Acting Deputy Commissioner, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........     8
Brian E. Kamoie, Assistant Administrator for Grant Programs, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security..............................................    10
Stephen Sadler, Assistant Administrator for Intelligence and 
  Analysis, Transportation Security Administration, U.S. 
  Department of Homeland Security................................    11
Stephen L. Caldwell, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    12

                     Alphabetical List of Witnesses

Caldwell, Stephen L.:
    Testimony....................................................    12
    Prepared statement with attachment...........................    57
Kamoie, Brian E.:
    Testimony....................................................    10
    Joint prepared statement with attachment.....................    42
McAleenan, Kevin K.:
    Testimony....................................................     8
    Joint prepared statement with attachment.....................    42
McClain, Ellen:
    Testimony....................................................     5
    Joint prepared statement with attachment.....................    42
Sadler, Stephen:
    Testimony....................................................    11
    Joint prepared statement with attachment.....................    42
Thomas, Rear Admiral Paul F.:
    Testimony....................................................     6
    Joint prepared statement with attachment.....................    42

                                APPENDIX

Additional statements for the Record:
    Hon. Janice Hahn, U.S. House of Representatives..............   130
    Kurt J. Nagle, President, American Association of Port 
      Authorities................................................   133
    American Trucking Associations, Inc..........................   138
    Colleen M. Kelley, National President, National Treasury 
      Employees Union............................................   144
    Henry H. Willis, RAND Corporation............................   149
Responses to post-hearing questions for the Record from:
    Ms. McClain..................................................   157
    Admiral Thomas...............................................   165
    Mr. McAleenan................................................   175
    Mr. Kamoie...................................................   187
    Mr. Sadler...................................................   194

 
      EVALUATING PORT SECURITY: PROGRESS MADE AND CHALLENGES AHEAD

                              ----------                              


                        WEDNESDAY, JUNE 4, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Coburn, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning, everyone. We are happy to 
welcome you today and thank you for joining us.
    Dr. Coburn and I have called this hearing, and this is a 
hearing he has had a whole lot of interest in. I have, too. It 
is a shared interest. But, we want to take a look at the 
current state of port security in these United States of 
America. We want to find out if we are heading in the right 
direction. I hope we can also focus on the work that needs to 
be done over the next few years to try to ensure that our port 
security efforts maintain the proper balance between security, 
safety, and trade facilitation. It is important, because our 
focus as a Congress cannot solely be on security, but also on 
maintaining and enhancing our economic competitiveness.
    As we all know, port security is no easy job. It involves 
the maritime security provided by the United States Coast Guard 
(USCG) when its men and women patrol our coasts and our 
waterways. It involves the physical security of port facilities 
like the ferry terminal in Lewes, Delaware, or an energy 
refinery along the Gulf of Mexico or Delaware City, Delaware, 
that is safeguarded by State and local authorities. It involves 
the cargo security provided by the U.S. Customs and Border 
Protection (CBP), which screens cargo to prevent dangerous 
goods from entering the United States while also facilitating 
the flow of trade and transportation.
    That last part is a particularly important piece. And, even 
as we build and maintain strong layers of port security, we 
need to take care not to impede transportation or commerce. Our 
ports and waterways are the lifeblood of our economy. I am told 
that more than 95 percent of all U.S. trade is handled by our 
seaports. And these ports account for over 30 percent of U.S. 
gross domestic product (GDP). That is more than $5 trillion in 
trade each and every year.
    As the former Governor of Delaware and someone who was 
ultimately responsible for running a major port, the city of 
Wilmington owned and ran that Port of Wilmington for many 
years. They ran out of money and the State had some money, so 
we took it over when I was Governor. This is something I know a 
little bit about, but care a whole lot about.
    The Port of Wilmington, located along the Delaware River in 
the northern part of my State--it is just south of 
Philadelphia--is the No. 1 seaport in North America, believe it 
or not, for the importation of fresh fruit, bananas, and juice 
concentrate. If you had a banana this morning for breakfast, it 
probably came through the Port of Wilmington. We call our 
port--our nickname is ``Top Banana,'' the ``Top Banana Port.''
    The Port of Wilmington is not just important for the State 
of Delaware, where it serves as a key economic engine in New 
Castle County. It is also a key port for the entire United 
States. So, protecting our ports, safeguarding our economic 
opportunity, is a responsibility that we take very seriously.
    As the Government Accountability Office (GAO) and other 
experts have noted, U.S. port security has come a long way. 
Shortly after September 11, 2001, the Maritime Transportation 
Security Act of 2002 (MTSA) became law and empowered the Coast 
Guard with new authorities to ensure commercial vessels and 
port facilities meet minimum security standards. A few years 
later, the Security and Accountability for Every (SAFE) Port 
Act of 2006 authorized key cargo and supply chain security 
programs enforced by U.S. Customs and Border Protection. Since 
that time, these cargo security programs have matured and taken 
root. Not only that, many of our international trading partners 
and international trading security organizations have created 
similar security programs emulating the Department of Homeland 
Security's (DHS) good work.
    But, we should not and we cannot stop here. We want to use 
this hearing as an opportunity to explore how the threat to 
ports has evolved and what the next steps for DHS should be. I 
also do not want to imply that there is no room for 
improvement. As I frequently say, everything I do, I know I can 
do better. I think that is true for all of us, and I think that 
is true for the way we handle port security.
    In a recent letter to the Congress, our new Secretary, Jeh 
Johnson, indicated he believed the 100 percent scanning mandate 
for inbound cargo shipping containers was impractical, and not 
the best use of taxpayer resources. If that is the case, we 
must look for a better way to address security risks while 
preserving the necessary speed of moving containers through our 
ports. So, I welcome the Secretary's pledge to make a good 
faith effort to improve the Department's capabilities without 
getting in the way of legitimate flow of trade. I look forward 
to discussing this issue with some of our witnesses today.
    I also look forward to hearing how the Department of 
Homeland Security plans to address emerging threats, how it can 
make programs more effective and efficient, and how the 
agencies represented here today can work with international 
organizations and our foreign partners to raise the global 
standard for port security.
    As you can see from our lineup of witnesses--it is quite a 
lineup--port security is a team sport. It is a perfect example 
of why bringing all these agencies together into the Department 
of Homeland Security was the right thing to do. The components 
present here today work seamlessly with one another to develop 
and implement the Department's layered risk-based strategy for 
port security. From the Coast Guard to Customs and Border 
Protection, Transportation Security Administration (TSA), 
Federal Emergency Management Agency (FEMA), and DHS's Office of 
Policy, each of you play a critical role and you have to work 
together. So do we.
    I am also glad we have GAO here with us today. We are 
always happy to have GAO with us. You have done a whole lot of 
work in this area. We are grateful for that and we will be 
looking to you for further help.
    Again, thanks to everyone for coming. As Dr. Coburn knows, 
we are going to start voting in a little bit and we are going 
to do one of those deals that we have perfected, where voting 
starts and maybe he will go vote the first time, and when he 
has voted, he will come back and I will go vote, and then we 
will just swap back and forth. Hopefully, we will be able to 
keep going and make it all work and be done in a punctual way.
    But, this is important. We are happy that you are here. Let 
me just now turn to Dr. Coburn, just to thank him for insisting 
that we have this hearing and make this a priority.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Mr. Chairman.
    First of all, welcome to all of you. This is an interesting 
area for us to be talking about. Sitting on the Intelligence 
Committee, our threats are greater, not less, in terms of 
risks, and getting it right is important.
    One of the commitments I made to Congresswoman Janice Hahn 
from L.A.--she has the L.A. port, which is one of our busiest, 
biggest, and probably greatest vulnerability in terms of 
ports--that we would have this hearing and do the oversight 
that is necessary to try to improve what we are doing.
    So, Mr. Chairman, I would like unanimous consent to put her 
testimony in the record.\1\ The House is out this week, and we 
would not have scheduled this hearing at this time had we known 
that, but we did and I am happy that we are having the hearing. 
So, I would ask unanimous consent to have her testimony 
included in the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hahn appears in the Appendix on 
page 130.
---------------------------------------------------------------------------
    Chairman Carper. Happy to include it.
    Senator Coburn. I would also note that the House has passed 
legislation that the Senate has not even taken up or 
considered, the Gauging American Port Security (GAPS) Act, and 
what we need to do is address today to find out where our 
weaknesses are, what we need to improve it. And, as Senator 
Carper mentioned, the 100 percent scanning obviously is not 
viable, or may not be viable, but we need to have a better 
approach than 2 to 4 percent scanning that we are seeing today.
    We know that a successful attack on one of our ports would 
be devastating. The RAND Corporation gave an example that it 
could have a trillion-dollar effect on our economy. That is a 
possibility. We cannot stop every attack that is going to come 
to this country, but we can certainly make it much more 
difficult and markedly decrease the likelihood. Everybody knows 
the history of how we came together after 9/11. We created the 
Port Security Grant Program (PSGP). We mandated 100 percent 
cargo screening, and the 9/11 Commission recommended that, as 
well. We also created the Transportation Worker Identification 
Credential (TWIC), which has had some significant difficulties 
and is still not implemented.
    So, my goal for this hearing is to review all the 
initiatives that were initially set out, assess how well they 
are working and whether or not they are working, and determine 
if our ports are as secure from a potential terrorist attack as 
we can make them feasibly and economically.
    I would say, we have spent $2.9 billion on the Port 
Security Grant Program with no metrics to measure whether or 
not we have actually improved our security. There are no 
metrics, so we do not know. We spent $2.1 billion on CBP cargo 
programs to meet a scanning mandate that we are told will never 
be met. So, there is $5 billion we have spent. We have no 
assessment of what we have gotten for that money. The TWIC 
Program was intended to create an ID card for transportation 
workers to enter secure areas, including the ports. We will 
talk about TWIC, and some of my questions will relate to some 
of the problems associated with it. In general, I think it is 
unclear, and, hopefully, this hearing will help us to know how 
much improvement we have actually made in securing our ports.
    So, I, No. 1, want to thank each of you for being here, 
preparing the testimony, which I have read, and being 
available. I apologize that we are going to have votes, but we 
will keep this moving as fast as we can. We have, I think, four 
votes starting at 11.
    With that, Mr. Chairman, thank you, as well, Mr. Top 
Banana. [Laughter.]
    Chairman Carper. I have been called worse things.
    We will make this work. We appreciate, again, all of you 
being here. I am going to just briefly introduce our witnesses.
    Ellen McClain, Deputy Assistant Secretary for Transborder 
Policy at DHS's Office of Policy, also served as DHS's 
Assistant General Counsel for Enforcement. She began her career 
with the U.S. Customs Service, where she served, I believe, as 
Deputy Associate Chief Counsel, is that right?
    Ms. McClain. [Nodding head.]
    Chairman Carper. Rear Admiral Paul Thomas joins us from the 
Coast Guard, where he is the Assistant Commandant for 
Prevention Policy. He is a specialist in marine safety, 
security, and environmental protection, a graduate of the Coast 
Guard Academy and of the Massachusetts Institute of Technology 
(MIT), where I am proud to say that one of our boys attended. 
When I went to Ohio State, I could barely spell MIT. The idea 
of having a kid that went to school there, I could not imagine. 
But, congratulations on that. Thanks for your service.
    Kevin McAleenan, Acting Deputy Commissioner at the U.S. 
Customs and Border Protection. Previously, he served as the 
Acting Assistant Commissioner of the CBP Office of Field 
Operations, leading the agency's port security and trade 
facilitation operations.
    Brian Kamoie, appointed as the Assistant Administrator for 
Grant Programs at FEMA in April 2013. Before that, Mr. Kamoie 
served as Senior Director for Preparedness Policy on the White 
House National Security Staff from 2009 to 2013.
    Stephen Sadler has been the Assistant Administrator for 
Intelligence and Analysis at the Transportation Security 
Administration since October 2011. He joined TSA in 2003 and 
has held several leadership positions. Prior to that, he spent 
25 years in the commercial maritime industry.
    And, finally, last but not least, Stephen Caldwell. 
Stephen, nice to see you. He joins us from GAO, where he is 
Director of Issues on the Homeland Security and Justice Team. 
Mr. Caldwell has over 30 years of experience at GAO and has 
worked on numerous reports on port and supply chain security.
    Thank you all. Your entire statements will be made a part 
of the record, and feel free to summarize as you go along. I 
will ask you, try to stay within about, what did we say, 5 
minutes, if you could. If you go way over that, we will have to 
rein you in. Thank you for joining us.
    Ellen, why do you not go ahead.

 TESTIMONY OF ELLEN MCCLAIN,\1\ DEPUTY ASSISTANT SECRETARY FOR 
   TRANSBORDER POLICY, OFFICE OF POLICY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. McClain. Good morning, Chairman Carper, Ranking Member 
Coburn. I am a career civil servant and testifying before 
Congress for the first time. As this has long been on my career 
bucket list, I appreciate this opportunity, along with my 
colleagues, to testify on a matter of singular importance to 
the Department, port security.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. McClain, Admiral Thomas, 
Mr. McAleenan, Mr. Kamoie and Mr. Sadler appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    Since 2007 and the passage of the SAFE Port Act, we now 
have several key strategic documents that shape and guide our 
efforts on port security: The National Strategy on Global 
Supply Chain Security, the Global Nuclear Detection 
Architecture (GNDA), and the soon-to-be-released 2014 DHS 
Quadrennial Homeland Security Review (QHSR).
    DHS is focused on enhancing port security through 
prevention, protection, and resilience, pursuant to a risk-
based approach. While strengthening the global supply chain 
system, including the maritime transportation network, we are 
ever mindful that it is critical to do so by promoting the 
efficient and secure movement of legitimate goods.
    Guided by the principles in these overarching documents, 
DHS's approach embraces five elements for a layered system of 
maritime, port, and cargo security.
    One, understanding the risk to better defend and protect 
against radiological and nuclear risks.
    Two, obtaining advance information and using advance 
targeting techniques.
    Three, increased collaboration with other Federal agencies, 
foreign governments, and private stakeholders.
    Four, implementing strong domestic security regimes.
    And, five, promoting preparedness by sustaining grant 
programs.
    Within this strategic context, DHS can point to several key 
developments in the past 7 years: Risk assessments to aid us in 
understanding the threat environment and prioritization of 
resources; Significant progress with international and private 
partners to incorporate risk management principles and leverage 
Trusted Trader Programs; The assessment of more than 1,500 
foreign ports, 200 alone in 2013, under the International Port 
Security Program; Establishment of 360 comprehensive Port 
Security Plans by port operators; And, grant awards to achieve 
interoperable communications, installation of surveillance 
cameras at port facilities, and funding for other similar 
physical security equipment and projects.
    Looking forward, we face challenges of increased trade from 
the expansion of the Panama Canal and increased activity in the 
Arctic. With increasing trade and shifting trade patterns, we 
must also confront aging infrastructure for a broad range of 
DHS assets, from Coast Guard cutters to X-ray and radiation and 
nuclear detection inspection systems. In forging the path for 
progress, DHS will concentrate on improving information 
collection, targeting, and dissemination, expanding global 
capacity to secure the supply chain, and addressing risk across 
all modes of transportation.
    With a continued focus on enhancing the capabilities of our 
components and our partners to address current and future 
challenges to securing our ports, DHS will continue to dedicate 
substantial attention and resources to implementing a layered 
risk management approach to security across all transportation 
pathways in an efficient and cost-effective way and building 
essential partnerships at home and abroad.
    Thank you again for the opportunity to testify about DHS's 
progress on enhancements to port security. I will be happy to 
entertain any questions.
    Chairman Carper. Good. Thanks, and we are going to have 
some, so thank you.
    Ms. McClain. Thank you.
    Chairman Carper. Thanks for your testimony.
    Admiral Thomas, please proceed.

 TESTIMONY OF REAR ADMIRAL PAUL F. THOMAS,\1\ USCG, ASSISTANT 
   COMMANDANT FOR PREVENTION POLICY, U.S. COAST GUARD, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Thomas. Thank you, Chairman Carper, Dr. Coburn, and 
thank you both for your continued support of our Coast Guard 
and the opportunity to discuss this really important topic with 
you this morning.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. McClain, Admiral Thomas, 
Mr. McAleenan, Mr. Kamoie and Mr. Sadler appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    The Coast Guard, in coordination with the other Department 
of Homeland Security components, the interagency, and the 
industry, implements a layered maritime security system. Our 
goal is simple. We want to detect, interdict, and mitigate 
threats as far from our shores as possible.
    And, we accomplish this through the layered system that is 
depicted on the slide before you and displayed to my left.\1\ 
As you can see on the slide, maritime security of U.S. ports 
does not start and finish in the United States. Rather, the 
opposite is true. The security of our ports begins in foreign 
ports, at foreign facilities and terminals. This is the first 
layer of our integrated system.
---------------------------------------------------------------------------
    \1\ The slide referenced by Admiral Thomas appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    The Coast Guard's International Port Security Program 
conducts assessments of foreign ports to ensure they meet 
international security standards and to build the capacity of 
our trading partners. So, just as you cannot enter U.S. 
airspace unless the flight originated from an airport that 
meets minimum security standards, you cannot enter U.S. 
seaports unless that voyage originated from a foreign port that 
meets security standards as certified by the Coast Guard.
    Additionally, the Coast Guard-led Foreign Port Threat 
Assessments bring together information from law enforcement and 
intelligence communities to assess the level of governance, 
crime, terrorist activities, and other factors that may help us 
determine which threats emanate from those ports.
    And, finally, overseas activities by our colleagues from 
the Customs and Border Protection and other DHS components help 
to ensure the safety and security of cargo and people before 
they depart foreign ports.
    If you look at the next several layers on the slide, the 
international waters, the U.S. Exclusive Economic Zone, and 
U.S. territorial seas, I will call these the offshore layer. 
Our regulations require that each ship en route to a U.S. port 
provide the Coast Guard at least 96 hours' advance notice of 
arrival. This notice includes information about the vessel, the 
cargo, the crew and passengers. Customs and Border Protection 
also requires advance notice with information about the cargo, 
the shipper, the consolidator, the receiving agent, among other 
information. And, other Federal agencies, like the Centers for 
Disease Control (CDC), may also require advance notice of 
arrival under certain circumstances.
    All of this information is collected and shared at both the 
national and the port level. It is screened and assessed so 
that, prior to arrival of any vessel, the Coast Guard Captain 
of Port has a consolidated, comprehensive assessment of all 
risks associated with that ship. And, when I say all risks, I 
mean all risks, everything related to safety, security, and the 
environment, as diverse as invasive species in ballast water or 
cargo, or crew members on a watchlist, passengers exhibiting 
signs of illness, or damage to the ship that might compromise 
safety or the environment.
    The Captain of Port then is able to coordinate a single 
interagency, local, State, and Federal risk mitigation plan for 
each ship that arrives. For the vast majority of these ships, 
local coordination is required to plan the necessary control, 
inspection, or enforcement actions. In some cases, the threat 
rises to the level that interagency coordination at the 
national level is required and we activate the Maritime 
Operational Threat Response Protocols.
    In some cases, the risk will be mitigated by interdicting 
the ship in the offshore zone. In other cases, the ship is 
allowed to enter the port, but is subjected to inspection and 
oversight prior to beginning cargo or passenger operations. 
These boardings are most often led by the Coast Guard, but they 
may include personnel from other Department of Homeland 
Security components or the interagency who can bring their 
special capabilities to bear on a given threat.
    In all cases, the vessel arrives at a port facility that 
complies with the requirements of the Maritime Transportation 
Safety Act and the SAFE Port Act. These facilities, by law, 
have security staff trained to specific standards. They have an 
access control system that includes credentials for each 
employee. They have approved plans in place to prevent and 
respond to security incidents. And, they execute a declaration 
of security with the foreign ships, when appropriate, to ensure 
the security and communications protocol at that ship-port 
interface are clear.
    And then beyond the individual port facilities, the port 
community as a whole is prepared and resilient and are capable 
of coordinated port-wide prevention, preparedness, response, 
and recovery activities. This is due in large part to the 
combined impact of investment through our Port Security Grant 
Program, establishment of the Area Maritime Security 
Communities, and development of the Area Maritime Security 
Plans (AMSP).
    In summary, Mr. Chairman, we have used the authorities in 
the Maritime Transportation Security Act and the SAFE Port Act 
to implement a security system that begins in foreign ports, 
continues in the offshore area as a vessel transits to our 
waters, and then remains ever vigilant in our ports that have 
robust interagency, local, State, and Federal coordination to 
mitigate threats, facilitate commerce, and respond to all 
incidents.
    Thank you. I look forward to your questions.
    Chairman Carper. You took one second too long. [Laughter.]
    You are off your game today, huh?
    Admiral Thomas. Yes, sir.
    Chairman Carper. Actually, that is very good. Thanks for 
that testimony.
    All right. Kevin, you are up. Please proceed.

TESTIMONY OF KEVIN K. MCALEENAN,\1\ ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McAleenan. Good morning, Chairman Carper, Ranking 
Member Coburn. It is a privilege to appear before you again 
today.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. McClain, Admiral Thomas, 
Mr. McAleenan, Mr. Kamoie and Mr. Sadler appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    Thanks to your continued support, along with effective 
collaboration with Federal, international, and private sector 
partners, DHS and U.S. Customs and Border Protection have made 
significant advancements in maritime cargo security. CBP has 
established security partnerships, enhanced targeting and risk 
assessment programs, and invested in advanced technology, all 
essential elements of CBP's multi-layered approach to 
protecting the Nation from the entry of potentially dangerous 
or volatile shipments, while expediting legitimate and 
economically vital commerce. I would like to highlight the 
progress of a few of these efforts for you today.
    In the first few years after 9/11, CBP created several key 
programs to enhance our ability to assess maritime cargo for 
risk, examine shipments at the earliest possible point, and 
increase the security of the supply chain. The Customs Trade 
Partnership Against Terrorism (C-TPAT), was established in 2001 
in the wake of the 9/11 terrorist attacks. C-TPAT provides 
facilitation benefits to vetted members of the trade community 
who volunteer to adopt tighter security measures throughout 
their entire international supply chain. C-TPAT has grown from 
seven initial members to over 10,000 members today.
    The National Targeting Center (NTC), also started in 2001, 
has developed world leading capabilities to assess cargo 
shipments, crew, and travelers for risk before they are laden 
or board vessels destined for the United States. At the NTC, 
CBP utilizes the automated targeting system, intelligence, 
commercial information, and traveler data to identify and 
mitigate potential threats.
    DHS and CBP have also strengthened detection equipment 
capabilities at domestic seaports. Since 2001, CBP has acquired 
1,387 radiation portal monitors and has increased its inventory 
of large-scale non-intrusive inspection systems from 64 to 314. 
These valuable systems help CBP officers detect radiological 
materials, weapons, and illicit substances.
    The support of Congress, specifically through the SAFE Port 
Act, has been a key catalyst in advancing CBP's trade security 
and facilitation capabilities beyond these signature efforts. 
The Act codified and made importer security filings mandatory. 
Building on the 24-hour rule, this program provides CBP 
additional advanced insight into the supply chain, allowing us 
to identify potential risks earlier and more accurately.
    The Act also codified the Container Security Initiative 
(CSI). Under CSI, CBP works with foreign authorities to 
identify and examine potentially high-risk U.S.-bound maritime 
containers before they are laden on vessels. CBP's 58 CSI ports 
now pre-screen over 80 percent of all maritime containerized 
cargo imported into the United States.
    CBP will continue to build on our progress by exploring and 
expanding new roles for industry stakeholders and international 
partners, such as Trusted Trader Mutual Recognition Agreements. 
We will continue to refine our targeting to better identify 
high-risk cargo, and we will work to increase the percentage of 
containers scanned abroad. And, we will continue to help lead 
the effort in developing increasingly effective and 
sophisticated global standards for cargo security. By utilizing 
risk-based strategies and applying a multi-layered approach, we 
can focus our resources on the very small percentage of goods 
or shipments that are potentially high-risk. CBP's use of 
advance information, technology, and partnerships improves 
global supply chain integrity and reduces transaction costs for 
U.S. businesses.
    Thank you for the opportunity to testify today. I am happy 
to answer your questions.
    Chairman Carper. All right. Thank you for that testimony, 
Kevin.
    Brian Kamoie, welcome.

 TESTIMONY OF BRIAN E. KAMOIE,\1\ ASSISTANT ADMINISTRATOR FOR 
   GRANT PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kamoie. Thank you, Chairman Carper, Ranking Member 
Coburn. I appreciate the opportunity to be with you and to join 
my colleagues from the Department to talk about the Port 
Security Grant Program, which we believe is a critical part of 
the Department's efforts to enhance the security and resilience 
of our Nation's ports.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. McClain, Admiral Thomas, 
Mr. McAleenan, Mr. Kamoie and Mr. Sadler appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    Senator Coburn, as you mentioned, we have invested $2.9 
billion since 2002. And while I agree with you that we 
certainly can continue to improve our measurement of both the 
effectiveness of those investments and our administrative 
management of the programs, we have clear evidence of the value 
of these investments across the program's priorities, which 
include maritime domain awareness.
    We have invested in over 600 port-wide projects that 
include port-wide coordination and collaboration, interoperable 
communications, and surveillance systems that assist in domain 
awareness. We have invested $161 million just in interoperable 
communications. We have also invested in improvised explosive 
device (IED) capabilities and chemical, biological, 
radiological, and nuclear capabilities, cybersecurity 
capabilities as that threat continues to evolve, planning at 
the port level training and exercises, and, of course, the 
implementation of the Transportation Worker Identification Card 
Program.
    So, in addition to these programmatic achievements and, for 
example, just in vessels that patrol our waterways, we have 
invested in over 500 vessels. In New York City, for example, 
the Port of New York used vessels, over 30 vessels, the day 
Hurricane Sandy made landfall and rescued over a thousand 
people.
    So, we know these dollars are making a difference. And, 
these investments also facilitate increased partnerships, not 
just at the Federal level with my colleagues here, but at the 
State and local level and with port owners and operators, and 
we have seen in a variety of instances--you can assure 
Congresswoman Hahn that we continue to make investments in the 
Port of Los Angeles for information sharing and collaboration, 
and Chairman Carper, in the Port of Wilmington, the investments 
there, not just in interoperable communications, but in 
information sharing between the port and the Fusion Center in 
Delaware that has allowed the building of relationships with 
State and local law enforcement and the port.
    I thought I would also tell you where we are in the fiscal 
year (FY) 2014 grant cycle. A hundred million dollars was 
appropriated for the program this year. Applications came in on 
May 23. The field reviews--as the Admiral mentioned, we work 
very closely with the Coast Guard. We have a two-tiered review 
process. Captains of the Port work with the port area, the 
local and State government, through Area Maritime Security 
Committees to prioritize projects. Those applications are under 
that field review right now and will be referred for a national 
panel review here at the headquarters level later this month, 
and then we expect to announce awards by the end of July.
    And so I will close by saying we look forward to the 
continuing dialogue about how we can continue to make these 
investments in the most effective and efficient way possible. 
We think they have made a real difference. And, I look forward 
to answering any questions you may have.
    Chairman Carper. Good. Thanks. Nice job.
    Stephen Sadler, please proceed. Thank you. Welcome.

  TESTIMONY OF STEPHEN SADLER,\1\ ASSISTANT ADMINISTRATOR FOR 
      INTELLIGENCE AND ANALYSIS, TRANSPORTATION SECURITY 
      ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Sadler. Good morning, Chairman Carper, Ranking Member 
Coburn, distinguished Members of the Committee. Thank you for 
the opportunity to testify today about the TWIC Program.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. McClain, Admiral Thomas, 
Mr. McAleenan, Mr. Kamoie and Mr. Sadler appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    TWIC is a fee-based program that provides a uniform, 
industry-wide, tamper-resistant, biometric credential to 
eligible maritime workers requiring unescorted access to secure 
areas of port facilities and vessels regulated under the 
Maritime Transportation Security Act of 2002.
    TSA administers the TWIC Program jointly with the United 
States Coast Guard. TSA is responsible for enrollment, security 
threat assessments, and technical systems related to TWIC 
cards. The Coast Guard is responsible for enforcement of TWIC 
card use.
    Since TSA launched a program in October 2007 at Wilmington, 
Delaware, we have conducted security threat assessments and 
issued cards to more than 2.9 million workers, including 
longshoremen, truckers, merchant mariners, and rail and vessel 
crews. The TWIC Program is the first and largest Federal 
program to issue a standard biometric credential for use in 
diverse commercial settings across the Nation. Working closely 
with industry and our DHS partners, the TWIC Program has 
evolved over the years to address concerns over the 
applicability of Federal smart card best practices to a working 
maritime environment, such as the requirement for two trips to 
an enrollment center for card enrollment and activation. TSA 
reformed the program by launching OneVisit in June 2013 in 
Alaska and Michigan. This provides workers the option to 
receive their TWIC through the mail rather than requiring in-
person pick-up and activation. Last month, TSA moved from the 
pilot phase of the program to a phased implementation for all 
TWIC applicants. We have added call center capacity for 
applicants checking on their enrollment status. We have enabled 
web-based ordering for replacement cards. We have increased 
quality assurance at our enrollment centers. We have opened 
multi-program enrollment centers across the country to allow 
individuals to apply for the TWIC, the Hazardous Material 
Endorsement, and TSA Pre-Check. We will expand the number of 
TWIC enrollment centers to over 300 this year, adding to the 
convenience of workers.
    TSA continues to evolve and modernize our credentialing 
programs through these initiatives, strong collaboration at the 
Department, partnership with industry, and the support of this 
Committee.
    Thank you for the opportunity to testify today and I look 
forward to answering your questions.
    Chairman Carper. Thank you, Mr. Sadler.
    And now, Stephen Caldwell, please proceed.

    TESTIMONY OF STEPHEN L. CALDWELL,\1\ DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Caldwell. Chairman Carper and Senator Ayotte, thank you 
for asking GAO to testify on port security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Caldwell appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    We have issued almost 100 reports on port security since 9/
11. Our most recent comprehensive report on port security was 
issued in the fall of 2012 to note the 10-year anniversary of 
the Maritime Transportation Security Act.
    Let us start with planning. There was a National Strategy 
for Maritime Security issued in 2005. GAO reviewed that 
strategy and its eight supporting plans and generally found 
they met much of the criteria that GAO has laid out for a good 
national strategy. We have also looked at some of the more 
detailed functional strategies, and in some cases, we have 
found those to be wanting. At the port level, we found that 
some of the plans specific to the ports have included the SAFE 
Port Act's requirement that they also cover recovery issues.
    Going back to some of the functional plans, we found some 
deficiencies in those. For example, DHS, after issuing the 
Small Vessel Security Strategy and laying out an implementation 
plan for that, has not been tracking the progress of the 
components in actually implementing it. That leaves some 
opportunities unrealized due to the lack of disseminating any 
potential lessons learned or even be able to track their 
overall progress on that strategy.
    In terms of maritime domain awareness, there have been a 
number of improvements. The Coast Guard through its Common 
Operating Picture Program, has provided additional data sources 
to the users; allowed Blue Force Tracking, which is the ability 
to track our own vessels; and also increased access across the 
Coast Guard to more users. However, many of the original 
systems used to increase maritime domain awareness have fallen 
short of the capabilities that were originally planned for 
those. Many of these shortcoming are due to acquisition 
problems that our reports have noted, such as not developing 
complete requirements at the beginning, not updating cost or 
schedule baselines, and not monitoring performance through 
initial operations.
    Regarding the security of our domestic ports, DHS 
components, especially the Coast Guard, have come quite a ways 
in implementing the Maritime Transportation Security Act. Key 
provisions of that Act call for security planning at the port, 
facility, and vessel level. It also calls for the Coast Guard 
to then inspect those facilities to make sure that those 
planned security activities are indeed in place. GAO has 
audited those programs. We have found progress, and most of our 
recommendations in those areas have been implemented.
    But, some areas remain problematic, and as noted in our 
reports, we have concerns about the Port Security Grant Program 
and the extent that DHS is monitoring the effectiveness of the 
actual projects. Going back to 2005, GAO found that the program 
lacked an adequate risk assessment process. It also lacked a 
mean to measure the effectiveness of the projects and the 
grants. Our more recent work did find that the grants are based 
on risk using the process that Mr. Kamoie had described here at 
both the port and the national level.
    However, more than a decade after the program's start, 
there are really no performance measures in place to determine 
whether the program at the port or facility level has improved 
security. In fact, in many cases, FEMA lacks project-level 
visibility to know whether the projects were, indeed, 
implemented as described.
    Regarding global supply chain security, there has also been 
a lot of progress, especially by CBP. We have reviewed these 
programs and noted that their management and operations have 
matured over time. We concur with CBP that implementing 100 
percent scanning, as defined in the SAFE Port Act and 9/11 Act, 
is extremely challenging. However, we are less convinced that 
the existing risk-based program does not have room for 
improvement. Our recent reports have found that CBP has not 
been timely in terms of measuring the effectiveness of its 
targeting system or evaluating the supply chain risks in 
foreign ports, including CSI ports. We did see the May 5 letter 
from the Secretary to you, Mr. Chairman, and note that both of 
those issues are discussed as potential improvements.
    In closing, GAO will continue to review port security 
programs for Congress, for this Committee and others. For 
example, we have ongoing work on port cybersecurity as well as 
the disposition of high-risk containers.
    That concludes my remarks. I am happy to answer any 
questions. Thank you.
    Chairman Carper. Good. Thanks so much for that testimony.
    Senator Ayotte, nice to see you, and why do you not lead us 
off.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. I appreciate it.
    I just wanted to get a followup, Assistant Administrator 
Sadler, and certainly Mr. Caldwell, about the TWIC Program. So, 
you testified about the OneVisit pilot, and now it is going to 
a nationwide mailing system. So, how do you assess it is going, 
and are you able to do this without concerns about fraud? So, 
just can you give us a quick update? Obviously, I appreciate 
the steps you have taken on this, but just in terms of 
substance.
    And then I would like to hear from Mr. Caldwell about how 
effective you think, overall, the TWIC Program is in helping 
protect port security and what other--I mean, GAO has been 
quite critical in past reports about what we need to do to 
improve this program and its effectiveness. So, that is really 
the issue I was hoping to get a little more insight on. Thank 
you.
    Mr. Sadler. Good morning, Senator. So, we started the pilot 
for TWIC OneVisit last year, or 2012 to 2013, in Alaska and 
Michigan. And then what we did, as we transitioned to our new 
technical system, we started the implementation nationwide. So, 
we started implementing the OneVisit in May of this year, May 
12. So, we plan to have a phased schedule to implement it 
across the Nation and we should have it done by this summer.
    So, we think it is going fairly well. We do mail the cards 
out. I believe we have about 3,000 cards for TWIC OneVisit 
right now that have been mailed out of about 5,000 enrollments. 
So, what we do is we send the card out separately and then we 
send the PIN in a different letter. So, we try and send them 
out in two different letters.
    Senator Ayotte. So, you have not seen fraud yet on that 
program?
    Mr. Sadler. On the mailing itself?
    Senator Ayotte. Yes.
    Mr. Sadler. Not yet, Senator.
    Senator Ayotte. OK.
    Mr. Sadler. But, we are still in the early stages of the 
implementation.
    Senator Ayotte. OK. Thank you.
    And, Mr. Caldwell, I know we are in the middle of a vote, 
so I just wanted to get a quick thought on--one of the things I 
think we have worried about overall about the TWIC Program, is 
it making us more secure? Are we improving this system so that 
we can have some reliability with it?
    Mr. Caldwell. Well, two things. The TWIC OneVisit pilot, is 
a tradeoff between security and convenience. It is more 
convenient to use the mail but you are losing at least one of 
your internal controls of being able to verify the person's 
identity by having them pick it up in person. Congress directed 
TWIC to go in that direction and----
    Senator Ayotte. They did----
    Mr. Caldwell [continuing]. So, that is what TSA did.
    Senator Ayotte. But, it is also good for us to followup----
    Mr. Caldwell. Yes.
    Senator Ayotte [continuing]. To make sure that we did not--
that the choice we made there, that I was obviously a supporter 
of----
    Mr. Caldwell. Yes.
    Senator Ayotte [continuing]. That we make sure that we are 
following up on it, as well.
    Mr. Caldwell. Yes. I do think it is a good idea to follow 
up on that to see if there is fraud.
    Senator Ayotte. But what I am worried about overall is, are 
we really doing anything with TWIC? I am not trying to be funny 
about this.
    Mr. Caldwell. Yes.
    Senator Ayotte. I get the goal of it. It makes sense. But, 
obviously, the concern has been, how are we enhancing port 
security overall?
    Mr. Caldwell. We have those concerns, as well. We have had 
concerns with the program pretty much from day one and the ways 
it was implemented. For example, the reader pilot that was done 
recently, we thought the evaluation of that was done quite 
poorly and left out a lot of things that would be used to 
evaluate the nature of any problems. What were the problems 
that were coming up? Was it the card itself? Was it the reader? 
Was it the person that was manning the security gate? When they 
did their test of the reader pilot, they did not include this 
kind of detailed data you need to know to get answers to such 
questions.
    Obviously, there are some additional concerns in terms of 
the shooting down in Norfolk Navy Base.
    Senator Ayotte. Yes. That was raised in the Commerce 
Committee.
    Mr. Caldwell. And the Navy now is not accepting TWIC, at 
least by itself, as an acceptable card to get on that base. So, 
they had some concerns with it.
    There has been an assertion that the TWIC has improved 
security, and we have seen that reported in the latest DHS 
report to Congress. But we have not seen strong evidence 
supporting it in terms of evaluating metrics.
    Senator Ayotte. So, you want better metrics and you want--
--
    Mr. Caldwell. GAO always wants better metrics, but----
    Senator Ayotte. Yes.
    Mr. Caldwell. But, I suspect we will be asked to look at it 
again as it continues to be implemented.
    Senator Ayotte. Are we doing better? I mean, that is a good 
question.
    Mr. Caldwell. Well, compared to nothing, having a pass that 
is unique, that is used in multiple places and with the 
background check, is useful. You can have felons because past 
crimes can be waived, so they still have those cards. But you 
do not have people getting the cards that have committed 
espionage against the United States or terrorism crimes. That 
is a pretty high bar. But one other way to look at it is that 
TWIC was put in----
    Senator Ayotte. Yes, that would be important.
    Mr. Caldwell. TWIC was put in as part of MTSA, as a series 
of protections, to prevent a transportation security incident. 
That is where its a judgment call, about whether someone 
getting in, committing a crime, committing murder, an whether 
would that rise the level of a transportation security 
incident? Not likely.
    Senator Ayotte. If there is anything else you want to add. 
I know we have to run to vote, but----
    Mr. Sadler. Just quickly. The first thing I want to say is, 
for a TWIC OneVisit, you have to go in and confirm your 
identity when you go in to----
    Senator Ayotte. The first time.
    Mr. Sadler. The first time.
    Senator Ayotte. Absolutely, yes.
    Mr. Sadler. You have to do that. The other thing I would 
say is that this is the first time that the maritime population 
has been defined. Prior to TWIC, there was no definition as far 
as I know, and I spent 20 years going in and out of ports. So, 
I am not sure who knew nationally who was going----
    Senator Ayotte. Who was going in and out of the ports.
    Mr. Sadler. And who was not going in.
    Senator Ayotte. We now know that answer.
    Mr. Sadler. We now have a population of three million 
people, and I vetted port workers before TWIC, a name-based vet 
with information that was submitted by ports. We vetted 900,000 
people. We did that prior to the implementation of TWIC as a 
mitigation strategy. Now, we are up to three million people, 
all right. So, the first thing is that we have defined the 
population. We recurrently vet them, every single day.
    Senator Ayotte. Mm-hmm.
    Mr. Sadler. We have one common standard--put the biometric 
aside--one common credential, one common background check. That 
did not happen prior to the TWIC across the country. And some 
places, you had to buy a multiple credential within the same 
State.
    Senator Ayotte. Right.
    Mr. Sadler. So, if you went to one port, you had to buy a 
credential. You went to another port, you had to buy a 
credential. And, I cannot tell you what the background check 
was. So, we think there is improvement in security just by 
virtue of the fact of those things that I just mentioned.
    Senator Ayotte. Thank you and thank you, Mr. Chairman.
    Chairman Carper. Not at all.
    I am going to slip out and run and vote and then come back, 
so Dr. Coburn and I can go back and forth. I just want to 
telegraph my pitch. When I come back, among the questions I 
will be interested in asking, so you can be thinking about 
them, are how do we measure success? I want to see if there is 
some consensus on how we measure success and if there is some 
consensus around common metrics. Then, how are we doing? What 
are we doing especially well? What are we not doing so well? 
And, finally, I always like to ask, what can we do to help?
    All right. Dr. Coburn. Thank you all.
    Senator Coburn. [Presiding.] Thank you. Have fun voting.
    Let us keep talking about TWIC for a minute. I would just 
like your assessment on somebody with a TWIC card that gets 
into a port and shoots people. How does that happen? No system 
is perfect, and I am not laying blame. I am just saying, how 
did we miss that?
    Mr. Sadler. At the time that individual was vetted, 
Senator, the standard for manslaughter included all 
manslaughter, voluntary and involuntary. So, when the 
individual came through--the crime had been committed in 2005. 
The conviction occurred in 2008. I believe he served about 800 
days on his conviction, so he served about 2\1/2\ years. He was 
released from incarceration in 2011. We encountered him in 
December 2013. And, based on the standards that we were using 
at the time, that voluntary manslaughter charge was not a 
disqualifier. So, he got his card in January 2014.
    As far as him using the card at the base, I would defer to 
the Department of Defense (DOD), but the one point I have to 
make is that the TWIC in and of itself does not give you access 
to a port. You have to have the TWIC and you have to have a 
business need.
    Senator Coburn. Yes.
    Mr. Sadler. So, we have gone back. We are scrubbing all the 
cases we had for disqualifications and involuntary 
manslaughter, voluntary manslaughter. And, we changed our 
policy now that if you come in with a voluntary manslaughter 
charge, that is going to be an interim disqualifier----
    Senator Coburn. Yes.
    Mr. Sadler [continuing]. Interim, meaning that you are 
still eligible to appeal. You are still eligible to request a 
waiver.
    Senator Coburn. Right.
    Mr. Sadler. You are still eligible to request an 
Administrative Law Judge (ALJ) review. And, you are eligible to 
go to court if you do not agree with the finding that we make.
    Senator Coburn. OK, great. That is the kind of answer I was 
wanting.
    Talk to me about TWIC readers.
    Mr. Sadler. I will defer to my colleague in the Coast 
Guard, but to Senator Carper's point about what we can do to 
increase security and how we can be more successful, that is 
one way we can be more successful, is by implementing the TWIC 
readers, because we have a biometric credential. We believe 
that it works. Right now, it is being used as a visual 
identification card, but it needs to be used as the biometric 
credential, and it needs to be used on a risk-based basis, as 
well. So, we believe that it is critically important to install 
readers in ports.
    Senator Coburn. Admiral.
    Admiral Thomas. Thank you, Doctor. I really appreciate the 
opportunity to answer that question, because as the agency 
responsible for implementing security at our port facilities, 
and as a previous Captain of Port myself, I think it is 
important to recognize that TWIC and the TWIC reader are part 
of a greater access control system for a facility, which has 
its own security system, which is in itself part of a greater 
system to secure our ports and the entire chain that I 
discussed.
    So, when you are going to put an access control system in a 
facility, you are going to include fences, gates, guards, 
lights, cameras, a credential of some sort, and in some cases, 
a biometric reader for that credential. So, it is just a matter 
of layering the security.
    As the Chairman noted in his opening comments, if this was 
security at all costs, we would have readers everywhere. But, 
because we are trying to balance, as we should, the risk with 
the benefit and facilitate commerce, we have done an exhaustive 
analysis, which I am happy to explain to you, that has ensured 
that the readers go at the highest-risk facilities. And I think 
that the Coast Guard's proposed rule puts those readers where 
the cost-benefit is currently the best. I think as we expand 
the use of TWIC and TWIC-like credentials beyond the maritime 
domain, because right now, it is the only place we have 
transportation credentials, reader costs will come down, card 
costs will come down, and the cost-benefit may change in a way 
that it just makes sense to put readers at more facilities. 
Thank you.
    Senator Coburn. Do you have a proposed date where your 
first round will be completed and then an assessment made of 
TWIC readers?
    Admiral Thomas. We are currently working on the rule. We 
put out a Notice of Proposed Rulemaking. We have received about 
2,600 comments. So, we are currently working through those 
comments. We are going to make some adjustments to the rules 
and we will go through the process. Hopefully, it will be 
published probably some time next year, and then there will be 
a 2-year implementation date before the readers have to be in 
place.
    Senator Coburn. So, we are 2\1/2\ years away from the 
completion of what the present plans of the Coast Guard are?
    Admiral Thomas. We are 2\1/2\ years or so away from the 
date that I anticipate readers will be required at certain port 
facilities.
    Senator Coburn. OK. Thank you.
    Let me go back for a minute. Ms. McClain, one of your 
statements in your opening statement was spending money in a 
cost-effective way. If you all do not have metrics on the 
effectiveness of grant money that is spent, how do you know it 
is cost effective?
    Ms. McClain. Senator, I appreciate the question. I think it 
is a little outside my lane. I would prefer to take that 
question back and get you an answer, working with my colleague 
from FEMA, on where we are in developing metrics or answering 
that particular question.
    Senator Coburn. Well, I do not think anybody will dispute 
that we have done some good with the money we have spent, OK. I 
am not saying that. I am just saying--and anybody can answer 
this that wants, and I would love for GAO to comment on it, as 
well. We have a port system where we tier risks and the vast 
majority of money have gone to tier one ports. And, under the 
system you are utilizing today, without any recognition of the 
money that has already been spent, we continue to spend the 
same money on the same risk because there is no risk reduction 
recognized in your tiering.
    So, if you do not have metrics associated with the money 
that is being spent in the Port Security Grant Program, when do 
we stop spending money at tier one ports? In other words, how 
much is enough, and how do we know when we have the best cost-
benefit analysis, the most cost-effective program, based on the 
risks and mitigation and the other goal that we have, how do we 
know that if we do not have a metric-based system?
    In other words, here is why we are spending this $2.9 
billion. Here is what we are hoping to get, and here is how we 
are going to measure whether we got it, because there are all 
sorts of examples--I will not in this hearing--but privately--
give you all the lists of money that you spent on stuff that a 
common sense person would say, does not have anything to do 
with port security. I mean, I can think of--the two ports we 
have in Oklahoma, the Port of Muskogee and the Port of Catoosa, 
and we have two 27-foot boats for the Oklahoma Highway Patrol 
on that river. And in terms of the risks associated with those 
ports, those are low priority to me compared to what the higher 
priority things are on that port, those two ports.
    So, my question is, if we do not have metrics to measure, 
and when we look at this in total--and I think you all have 
done a wonderful job in terms of laying this out--but, how do 
we know, and how do we know when to quit spending money that 
gives us a diminishing return on the Port Security Grant 
Program?
    Mr. Kamoie. Senator, I am happy to field that question. 
Improved measurement is absolutely an area where we see a lot 
of opportunity.
    Senator Coburn. But, let me interrupt you there.
    Mr. Kamoie. Please.
    Senator Coburn. What is your measurement now?
    Mr. Kamoie. Sure. In fiscal year 2013, we, for the first 
time, instituted measures related to sustainment of existing 
capabilities versus building new ones. We took the GAO and Mr. 
Caldwell's reports and recommendations quite seriously and are 
looking very closely at what ports are doing with the funding. 
We, for the first time, in the fiscal year 2012 application 
cycle are requesting project-level data going in. You probably 
are aware of the history of the program and the flexibility 
that had been given at the local level against Area Maritime 
Security Plans. There remains a lot of flexibility, but we are 
increasing the oversight to request project-level data up front 
so that we can start to get that information to form even more 
effective measures of outcomes.
    On the grants management side, Senator, we certainly have 
measures now, and even over fiscal year 2012, measures of our 
monitoring. Mr. Caldwell mentioned the level of monitoring. One 
hundred percent of our Port Security Grants now undergo some 
level of monitoring. We have a tiered monitoring system where 
our program staff on a routine basis look at every award, look 
at the history of the grantee, the history of the outcomes 
achieved, their financial measures, from draw-down, rate of 
expenditure, rate of deobligation, and that, then, is reviewed, 
and we do prioritize based on the risks we see in their 
management of the grants all the way up to desk reviews, where 
we request a lot of additional information from grantees, and 
then site visits.
    So, what I would tell you, Senator, is I look forward to 
continuing to work with you to continue to get the data we need 
to form more effective measures. I agree with you that 
everybody can point to the examples, and there are really some 
stunning examples of how useful and effective this funding has 
been. But, I think you would also agree with me the plural of 
anecdote is not data, and we will continue to refine our 
measures to get that data.
    Senator Coburn. Yes. As I noted, I think it has improved, 
but I think my underlying concern, somebody is going to be 
sitting up here 10 years from now, and the amount of money to 
spend on this kind of program is not going to be there. So, how 
we spend the money today is really important, because there is 
going to come a time--I will repeat for you, Social Security 
Disability runs out of money at the end of next year. Medicare 
runs out of money in 2026. Social Security runs out of money in 
2032. By 2030, the entire budget will be consumed of Medicare, 
Medicaid, Social Security, and the interest on the Federal 
debt.
    So, my questions are all based on the future, and if we 
spend money really well now, we will not need to be spending 
money in the future. So, that is the basis of the question. It 
is not a criticism. It is just that we need the best cost-
benefit value for every dollar that you send out in the Port 
Security grant.
    Mr. Kamoie. We agree with you and we are working with our 
partners on the Vulnerability Index, which is one of the things 
you mentioned, and how do we understand what risk we have 
bought down, and we will continue to look at that to make sure 
we are spending the money as effectively as possible.
    Senator Coburn. Thank you.
    Admiral, one of my concerns, and I cannot go into detail, 
but let me give you a hypothetical and you give me the answer. 
Let us say somebody leaves one of our certified ports overseas 
and arrives here, but in between there and now, something was 
added to that cargo. Do we have the capability to know that?
    Admiral Thomas. Well, Doctor, I am not exactly sure. If 
they leave a foreign port----
    Senator Coburn. They leave a foreign port that is one of 
our certified ports, one of our allies, meeting all the 
requirements that you all have, and someplace between when they 
left and when they arrived at the Port of Los Angeles, somebody 
has added a package.
    Admiral Thomas. So, if that occurred at another foreign 
port, so----
    Senator Coburn. No, not in the port----
    Admiral Thomas. Just in transit.
    Senator Coburn. In transit.
    Admiral Thomas. Well, the only way that we would be able to 
determine--a couple things would have to happen. Probably, the 
entire crew would have to be complicit with this individual 
that is carrying this out, because it is difficult to access 
particularly a container in transit without a significant 
amount of effort, and that would require probably more than one 
person.
    Senator Coburn. Let us not worry about the details of that.
    Admiral Thomas. Sure.
    Senator Coburn. Let us say it happens.
    Admiral Thomas. If it happens, the only way we would know 
is--and, really, this is a better question for my colleague 
from Customs and Border Protection--would be because the 
container has been opened and we would be able to determine 
that, but maybe you can----
    Mr. McAleenan. Sure. Senator, we have two elements that I 
think would be germane here. One, the Import Security Filing 
gives us the stow plan for the vessel, so we know where each 
container is on a vessel, whether that is going to be 
accessible during a voyage or not. We do see drug smugglers 
attempt to use what we call rip loads, where they break the 
Customs seal, put a load just inside the doors of the 
container, and lock it back up. That is really only doable on a 
vessel in transit around the deck area. So, we know which 
containers could be accessed. And then we do routine seal 
checks upon arrival to see whether those containers have been 
tampered with, whether those doors have been opened. So, there 
are different steps in our layer of processes to address it.
    Senator Coburn. Can somebody duplicate counterfeit your 
seal?
    Mr. McAleenan. They can try to, yes, and we have detected 
dozens of attempts to do that pretty effectively.
    Senator Coburn. So, they have not been able to do that as 
of yet?
    Mr. McAleenan. I will not say, Senator, that----
    Senator Coburn. That you are aware of.
    Mr. McAleenan [continuing]. There have been no successful 
counterfeit attempts, but we do train our personnel to detect 
what our seals are supposed to look like, whether they have 
been tampered with, and there are number sequences and other 
kind of safeguards in this process.
    Senator Coburn. This is a long time ago, but I will just 
share an experience with you. I bought a company in Puerto 
Rico, put it into four containers, all the equipment, 
everything that was there. All four containers arrived at one 
of my plants here. All the seals were there. And when we opened 
the containers, everything of significant value that could have 
been marketed was gone, but the seals were still there. So, the 
fact is--and that is way before 9/11. That was in the 1970s. 
But, the fact is that people will try and do it.
    I guess my question is really this. Do we have the 
capability to track ships from the time they leave a port until 
the time they arrive here and know whether or not they have 
been boarded or accessed between disembarkment and embarkment 
here?
    Admiral Thomas. That is a question I probably cannot answer 
in this venue, sir.
    Senator Coburn. Got you. All right. Thank you.
    Mr. Caldwell. Senator, did you want me to touch upon the 
metrics issue?
    Senator Coburn. Yes, please.
    Mr. Caldwell. We have seen a weakness in metrics at the 
strategic level. Whether it is the national strategy or the 
more detailed functional plans, we have not seen metrics laid 
out early as to what the end state is and how we are going to 
measure that. We have also seen problems, particularly at the 
program level, because those are easier for GAO to look for and 
find.
    We have found an improvement of the metrics of how the 
programs are run, i.e., process metrics. One of the first 
things that we do when we look at a program is ask how the 
program is being run and obtain those metrics. A lot of times, 
we will find weaknesses in those process internal controls. 
Those have improved across the board, and so when I say some of 
these programs have matured, a lot of this is better management 
of the program. Where we have not seen large improvements is in 
the area of actually measuring the results of the program and 
what they are trying to achieve.
    I would also agree with you on the importance of cost-
benefit analysis. We will get a push back from the agency that 
our recommendations could be expensive and they do not have 
enough money to implement them. But FEMA ends up spending $3 
billion on port security grants. GAO has had an outstanding 
recommendation for 9 years now, that FEMA come up with 
performance measures on the Port Security Grants. So, maybe a 
couple of million dollars to do some analysis to develop those 
metrics on performance, in hindsight, looks like it might have 
been money well spent.
    One example of cost-benefit analysis having a positive 
impact involves the advanced spectroscopic portals (ASP) that 
the Domestic Nuclear Detection Office (DNDO) was developing. 
The first testing that DNDO did it was very light--it was not 
very rigorous. We pointed that out. When they did the rigorous 
testing and then they looked at how much those ASPs would cost 
compared to the marginal capability they were going to add, DHS 
canceled the whole program. They canceled it after spending 
$280 million, but eventually, they were planning to spend, $3 
billion, so that was a case where whatever the testing or 
analysis cost in the end it led to a good result.
    Senator Coburn. All right. OK. Let me ask Mr. Kamoie, do 
you all have plans to reinsert the fiduciary agents into the 
PSG?
    Mr. Kamoie. We do not, Senator.
    Senator Coburn. And why is that?
    Mr. Kamoie. When the fiduciary agent model was used, it was 
at a time when the appropriations levels for the program were 
much higher, and was several--I think it was starting in 2007 
and after rounds of stimulus funding. The agent model was 
absolutely necessary to assist the agency in distributing and 
monitoring the funds.
    Over time, however, as the appropriations level has gone 
down and our internal capability with staffing has increased to 
manage the program, the fiduciary agent model has become less 
necessary. And in terms of monitoring performance, there was a 
varying level of performance by fiduciary agents in monitoring, 
and so given our increased staffing, our increased 
capabilities, we think it is more appropriate that we monitor 
and oversee the grant funding and how it is spent.
    The other thing I will say is that the allowability of 
management and administration costs from the grant program to 
fiduciary agents of 3 to 5 percent would result, for example, 
just this year in $3 to $5 million in overhead costs that we 
think are better invested in actual port security projects.
    Senator Coburn. Do you have the flexibility under the 
appropriation bills to use some of that grant money for grant 
management?
    Mr. Kamoie. Senator, I will have to check the language and 
get back with you on that.
    Senator Coburn. But, would that help you? In other words, 
rather than spending $3 to $5 million on a fiduciary, if we 
spent an extra $1 or $2 million on managing grants, especially 
cost effectiveness of grants, and then looking at that--I am 
pleased with the progress that is being made. I just do not 
think we are there yet, and so I would love to know what we 
need to do to help you to be able to get to the point where a 
model for grants at the Federal Government is, the Division of 
Library and Museum Sciences. If you get a grant from them, you 
can guarantee that they are going to check on you. They are 
going to do a metric. They are going to know whether you 
followed your plan in the grant. And if you are not, they pull 
the grant and you do not ever get another one again. So, 
everybody has a different expectation, and so the fact that 
some grant money is going to things that are not really for 
security, if you had that reputation, I guarantee you, 
everything would be put down the way you want it put down, even 
though you have flexibility.
    Mr. Kamoie. I will absolutely take a look at that. We are 
willing to learn lessons from wherever we can.
    Senator Coburn. They are the best run grant program in the 
government. It is not big.
    Mr. Kamoie. I appreciate that.
    Senator Coburn. The other thing is the spend down. We are 
still, in terms of what--we have granted, but we have still got 
a long ways to go on spend down. Where are we on that, and is 
that because these are long-term programs?
    Mr. Kamoie. So, that is getting better, as well, and early 
on in the program, when ports were doing larger capital project 
infrastructure building with multi-phase, complicated projects, 
it took a long time to spend down. A lot of those projects have 
been completed and we have taken a number of steps to assist 
grantees in the spend down. One, we remind them quarterly.
    Senator Coburn. Yes.
    Mr. Kamoie. We are in touch, asking them to draw down. Two, 
we have shortened the period of performance for grants to 2 
years.
    But, your question was where are we. In August 2012, for--
and we can followup in writing with these numbers, but for the 
program years 2008 to 2011, 80 percent of the available funds 
were not yet drawn down. A year later, for fiscal year 2008 to 
2012--of course, every year, one goes off the books--but, we 
moved the needle down to 44 percent of funds not being drawn 
down. And, we did a check at the end of April, and right now, 
we are at 39.3 percent not yet drawn down from 2008 to 2013.
    Senator Coburn. All right. I am going to have to recess 
this and go vote. Senator Carper will be back in a moment.
    Mr. Kamoie. Thank you, Senator.
    [Recess.]
    Chairman Carper. [Presiding.] Let us just see if there is 
any consensus on the metrics that we are using, how do we 
measure success. Let us just start with you, Ms. McClain. What 
are the metrics that we are using or ought to be using, and 
using that metric or metrics, how are we doing?
    Ms. McClain. Mr. Chairman----
    Chairman Carper. Well, and maybe not so well.
    Ms. McClain [continuing]. I think there are several 
indicators that evidence success and progress in securing the 
ports. I would note that in the last 7 years, our 
relationships, our programs internationally, those global 
partnerships, the capacity building, the agreements, everything 
that is necessary to supply the whole global supply chain, I 
think there have been significant advancements in that area. I 
also think that our improvements in the advance data and 
targeting area make us more secure, the Coast Guard's port 
assessments, 1,500 ports. I think there are a lot of indicators 
that there is a global recognition of the need to tackle this 
issue on a broader basis.
    Chairman Carper. All right. Same question, Admiral Thomas.
    Admiral Thomas. Thank you, Mr. Chairman. I was Captain of 
Port in Galveston, Texas, on September 11, 2001, and then for 
the 3-years that followed as we scrambled to figure out what it 
meant to secure our ports, and so from my perspective, it is 
clear that we have achieved a lot. But, I think one of the 
first things we did, and Mr. Caldwell mentioned the strategies 
that were out there, we recognized that in order to build a 
secure port, we had to first build the regimes. We had to do 
that locally. We had to do it nationally. We had to do it 
internationally. Then we had to build awareness so we could 
figure out what was going on and be able to pick out anomalies. 
And then we needed the capability to respond to those 
anomalies.
    So, if you look at those three building blocks and you 
compare to where we were on September 11, 2001, to where we are 
today, it is clear there has been progress, and there are clear 
metrics within each of those.
    So, with regard to regimes, certainly thank you to the 
Congress for the Maritime Transportation Security Act and the 
SAFE Port Act, but that was the impetus for the international 
regime, which is the International Ship and Port Security Code, 
as well as regimes that now have been implemented as far down 
as individual port authorities. And, I am not talking about 
just regimes that are required by the law. I am talking about 
they understand that security is now part of their business 
product. So, I think in that regard, there are clear measures.
    Really, an intangible, probably, from here to see, but as 
the Captain of Port, I can tell you, there was no awareness or 
recognition that security really was part of the product in the 
port. We had gotten the message across with regard to safety 
and environment, but now they get it. It is part of their 
business, as well. So, I think there is a metric there.
    And certainly with regard to awareness and capability, we 
have built the capabilities federally, locally, 
internationally, all of which, I think, are clear evidence that 
we have been effective in terms of enhancement.
    I am with you. I think we need to do more. I think we can 
never rest on our laurels. I am concerned about emerging 
threats like cyber. We need to develop some metrics there.
    Chairman Carper. We will come back. We will finish first. 
But, how are we doing? What are we doing well? What metrics are 
we doing? How do they demonstrate where they are doing better? 
But, I want to come back and see what is on this ``to do'' list 
for us. Kevin.
    Mr. McAleenan. Mr. Chairman, I will touch on five areas. 
Broadly, our ability to identify and mitigate risk is the 
metric we seek to measure ourselves on.
    First, on the data front, as Ellen alluded to, we are 
getting advance information on all cargo shipments destined for 
the United States--manifest information, entry information, an 
Importer Security Filing, which is another 12 data elements 
that are critical.
    In terms of targeting and assessing that risk, category 
two, we are analyzing all of it with our automated targeting 
system, which we think is a very sophisticated capability that 
is constantly and iteratively approved, and we are currently 
working on responding to the GAO's ideas on identifying the 
effectiveness of those targets with more granularity.
    Three, examining at the earliest possible point in the 
cycle. Currently, 85 percent of shipments that we identify as 
potentially high-risk are examined before they are laden onto 
vessels destined for the United States. Our examination 
requests of our CSI foreign partners at our 58 ports are 
accepted 99 percent of the time, and we think those are very 
solid metrics. One hundred percent of containers identified as 
potentially high-risk are examined before they are let into the 
United States stream of commerce. So, 85 percent prior to 
lading and the rest of the 15 percent before they are allowed 
to enter the United States on arrival.
    Securing the supply chain, category four. Over 50 percent 
of all cargo containers by value are part of our C-TPAT 
partnership with our 10,750 partners. We have increased the 
security of the supply chain through that partnership. We are 
also mutually recognizing other countries' systems, including 
the European Union and six other agreements, to ensure broader 
visibility globally, as Ellen alluded to, the international 
partnerships.
    And, five, our efforts to address the highest consequence 
threats. Rad/nuc, we are scanning 99.8 percent of all arriving 
containerized cargo through----
    Chairman Carper. Say that again. What percent?
    Mr. McAleenan. Ninety-nine-point-eight percent, so just 
about everything arriving into seaport is scanned through a 
radiation portal monitor, sophisticated, sensitive technology 
for identifying radiological and nuclear materials.
    The other part of this coin, sir, the facilitation piece 
that you referenced, the vast majority of cargo arriving in the 
United States is released before it even touches the dock. Our 
C-TPAT partners are getting fewer exams because they have 
secured their supply chains. We have established mobile 
technology options for agriculture specialists to clear 
shipments right there on the dock instead of waiting hours and 
having those bananas sit in Wilmington. The U.S. Chamber of 
Commerce and 71 others just wrote to the Secretary this week in 
an open letter saying that this regime is working well and that 
the facilitation piece, in particular, we have achieved through 
this layered risk approach.
    So, those are the metrics we look at. I am happy to 
elaborate on any specifics.
    Chairman Carper. All right. Fine. Mr. Kamoie.
    Mr. Kamoie. Mr. Chairman, I think while you were out, what 
we agreed is that in the Port Security Grant Program, that we 
have measures, we have made progress, but that we agree we can 
continue to make progress.
    On the programmatic side of the effectiveness measures, we 
look very carefully at the six priorities of the grant program: 
Enhancing maritime domain awareness; enhancing improvised 
explosive device detection; chemical, biological, radiological, 
nuclear, and explosive prevention, protection, response, and 
recovery capabilities; enhancing cybersecurity capabilities; 
maritime security risk mitigation projects; planning training 
exercises; and the Transportation Worker Identification 
Credential implementation.
    Right now, we have a measure that we are looking at 
building new capabilities across those six areas and sustaining 
existing capabilities. But, again, that measure can be better.
    On the administrative management side, we have made 
progress in measuring our ability to effectively and 
efficiently release the funding, monitor programmatic use of 
these funds, monitor grantee financial management of the funds, 
monitor the closing of awards and grantee draw-down. We are 
making progress, Mr. Chairman, and we have an opportunity to 
make even more.
    Chairman Carper. Good. Thanks. Mr. Sadler.
    Mr. Sadler. Yes, sir. For us, I think it is about getting 
good, quality information and data for us to make the right 
decisions on when we issue a card. It is about continuing to 
get that information after we issue the card so we can monitor 
the individual to ensure that they have not done something as 
to disqualifying, whether it is on a Terrorism Watch List or 
through some type of criminal issue.
    I think the other thing that is going to make us better is 
installing readers. We believe that the Coast Guard, who we are 
very close partners with, as we are with everyone else on the 
panel, made the right decision to take a risk-based approach 
and put readers where they need to be and we think that is 
going to be a major improvement for our program, considering it 
is a biometric credential.
    And I think the last thing that we have to do is share 
information, which we do on a daily basis. So, we need good 
quality information to make good decisions with. We need the 
information to keep on coming, so we can continue to make good 
decisions after we issue the credential. We need to install 
readers. And, we need to continue to share information, which 
we do on a daily basis with our partners.
    Chairman Carper. Mr. Caldwell.
    Mr. Caldwell. Thank you very much. The most difficult 
question is how do you measure security and risk, and I think 
we have looked at that quite a bit across these programs. One 
of the better measurement programs that we have found is a 
Coast Guard program called the Maritime Security Risk Analysis 
Model. They can actually, at the facility level, try to measure 
the risk based on vulnerabilities and threats and various 
scenarios and like that.
    The Coast Guard also took a step trying to develop a more 
sophisticated measure of how much Coast Guard programs actually 
reduced risk in the port environment--their estimated 
percentage reduction of maritime security risk subject to Coast 
Guard influence. We were critical of this, because in the end, 
it was subject matter experts in the Coast Guard sitting down 
and thinking about what those reduction measures are and then 
putting a single point of percentage on that.
    We had a couple of criticisms in terms of ways they could 
try to make that better. When there is so much judgment, you 
want to give a range instead of a point estimate. But, I do not 
want to be too critical of the Coast Guard in the sense that 
they certainly were trying to think larger about their suite of 
programs and to what extent they reduce risk.
    They are looking at whether they want to keep that measure 
or not. It was a measure they were using within the Coast 
Guard. But they actually were not really using it to direct 
resources or conduct operations. So, if you have a performance 
measure but you are not really using it to monitor things or 
prioritize resources, you have to question whether it is a 
useful metric in the end. Thank you.
    Chairman Carper. OK. Some of you began to answer the second 
part of my question, but I want to take another shot at it. My 
staff and my colleagues oftentimes hear me say these words. The 
road to improvement is always under construction, and that is 
true here, as well. I just want to, in terms of, again, 
thinking of metrics, but thinking of areas, not where we are 
making progress but areas maybe where we have not made nearly 
enough--there has been some allusion to this, but some areas 
where we have not made nearly enough, and we can actually 
measure that we have not made nearly enough--are there any of 
those--think about it out loud--who can help enable us to make 
the progress that is needed? Us, the Legislative Branch? This 
Committee? The President in his budget? Who needs to help out?
    Ellen, do you want to go first?
    Ms. McClain. Yes, Mr. Chairman. I think that, just to sort 
of set the scene here, we certainly need an approach that is 
flexible, innovative, so that we can take on the adaptive 
adversary, and we need something that--an approach that is 
risk-based so that we can make the most cost effective use of 
our resources. That said, we recognize that we do not want to 
have negative impacts on global trade.
    So, we are looking in the near term to specific 
improvements in the area of the targeting algorithms, reducing 
the false alarms, working with our partners at some of the CSI 
ports to increase the percentage of scanning that is 
undertaken. We are looking at, and I think this is a key point 
that I hope does not get lost in today's discussion, across all 
pathways, focusing on a single pathway does not necessarily 
reduce overall risk. So, as we go forward, we need to consider 
improving security across all transportation pathways.
    And, last, I would note that we are continuing the dialogue 
with stakeholders to see what additional or expanded roles they 
might take in improving the security of our ports.
    Chairman Carper. OK. Thanks. Admiral.
    Admiral Thomas. I think there are a couple areas that I 
would be concerned about. The first is complacency. As we get 
further from 9/11, I think the sense of urgency decreases. And 
so from the Congress on down to the security guard at a 
facility, we have to make sure we maintain the sense of urgency 
with regard to port security, because the threat is adaptive, 
and as good as the physical security systems that we have in 
place are, there are emerging threats like cyber that we have 
not yet addressed. We have begun to address them. I believe the 
Coast Guard has the authorities that we need to do that and we 
are working on what the resources might be, so you may hear 
about that.
    The other area that would be of concern is the real high-
end threat that needs to be intercepted as far offshore as 
possible. We need to maintain the ability to get out there and 
do something about some identified threat that is bound for our 
shores, and that is a real challenge because it requires ships 
and helicopters and people that are not only capable of getting 
there, but are present at the time when you need them.
    So, those two things are areas where we need to make sure 
that we continue to build our capability and to build our plans 
for action.
    Chairman Carper. Great. Thank you. Kevin.
    Mr. McAleenan. Mr. Chairman, I would echo a couple of the 
comments that Ms. McClain made. On the targeting side, there is 
always an opportunity to improve our analytics and our 
capabilities to assess risk and we are pursuing that 
aggressively. We have a good system for taking in current 
intelligence, manipulating the data elements against it, and 
identifying risk, but we want to continue to get better. So, 
that is an area, and we do get Congressional support to 
continue to improve in that area.
    With the radiation portal monitors, we need to be able to 
dial the algorithm so they are very sensitive for the threat 
materials we are worried about, but they reduce the naturally 
occurring radiological material alarms that we face on normal 
commodities, like bananas, for instance, and granite, and other 
things that do hit on our radiation portal monitors. We do not 
want to waste time on those alarms. We want to focus on what 
could potentially be dangerous material.
    I think there are continued opportunities globally. We are 
currently working with partners on broadening the scope of CSI, 
security first, but also looking at other threats to the goal 
of supply chain--contraband, commercial fraud that can support 
criminal activity, and so forth. Enhancing global supply chain 
security standards--we did that after 9/11 with the World 
Customs Organization and the same framework of standards. There 
are always opportunities to take that to the next level and to 
build capacity with those governments and customs services that 
are willing to step forward but do not have the internal 
capacity or funding.
    And then, of course, the private sector, continued 
opportunities there, not only on the supply chain side with C-
TPAT, but looking at whether, from a terminal operator 
perspective, there might be a return on investment to do 
greater security work prior to lading from a private sector 
perspective that we could then share and benefit in. So, we are 
pursuing all of these angles as the Secretary noted in his 
letter.
    Chairman Carper. Those are great points. I really 
appreciate your responses. I will come back and we will ask the 
same question of the last three witnesses, and I will be right 
back, Tom.
    Senator Coburn. Do you want them to answer those, or do you 
want to----
    Chairman Carper. No, I will do that when I come back.
    Senator Coburn. [Presiding.] OK. Thank you.
    Let us talk about the 100 percent mandate and the fact that 
we are at 2 to 4 percent. I think those numbers are right. 
Please correct me if I am wrong. And, GAO, I would love for you 
to get in on this. There is no question, the 9/11 Commission 
said, for port security, we need 100 percent screening. And 
what we hear is, that is not practical.
    So, the question is somewhere between 2 to 4 percent and 
100 percent, where do we need to be? How do we need to decide 
where we need to be? How do we become more effective in terms 
of container inspection? Admiral. Kevin.
    Mr. McAleenan. Senator, I will start, and I am sure 
colleagues will want to chime in. On the 100 percent mandate, I 
think the key question for us is not the percentage itself, but 
are we inspecting the right percentage. Are we inspecting and 
identifying those containers that are high-risk and mitigating 
that threat at the earliest possible point?
    While you had to step out to vote, Senator, we talked about 
some of the metrics that we are following and whether we are 
accomplishing that and I would just like to reiterate one of 
those elements for you, sir. On those containers that we 
identify as potentially high-risk through our Automated 
Targeting System (ATS), we are currently examining, with our 
foreign partners under the Container Security Initiative, 85 
percent of those containers before they are ever laden on a 
vessel destined for the United States So, within that----
    Senator Coburn. So, that is 15 percent that are not getting 
inspected.
    Mr. McAleenan. They are getting inspected fully at the 
first port of arrival in the United States. So, we are checking 
them before they enter the stream of commerce to the United 
States, and we are getting 85 percent of them before they are 
even on a ship destined for the United States.
    Senator Coburn. OK. But, if that 15 percent, one of them 
has a nuclear weapon in it, it is a little late, is it not?
    Mr. McAleenan. Yes, but that is not the only layer that we 
have in place prior to lading.
    Senator Coburn. I understand, but when we think about this, 
you are saying 85 percent of those deemed high-risk. So, what 
is our goal to get to 100 percent of those deemed high-risk?
    Mr. McAleenan. So, our goal there, sir, is to increasingly 
target with the right foreign ports--how we can encourage them 
to examine anything that we think is high-risk before lading. 
So, we have 58 CSI ports covering over 80 percent of cargo 
destined for the United States. We think we have placed those 
CSI locations in the right places. We are currently, though, 
assessing how the threats have changed. Are there certain 
strategically important ports that we can add capability? Can 
we work with additional countries to encourage them to take 
some measures before lading?
    Also, just mentioning as you came in, sir, working with 
terminal operators in the private sector. Is there a way that 
we can encourage terminal operators to increase the overall 
inspection if they think there is a return on investment, 
working with their customers to sell a security benefit that we 
could then benefit from and share in the information, also.
    Senator Coburn. All right. Admiral, any comments on that?
    Admiral Thomas. The container inspection world really does 
belong to Customs and Border Protection, although I can 
certainly attest to the impracticality of looking at every 
container as it comes through our yards. I have seen the 
targeting that we do jointly on cargo and the automated 
processes really are very effective and very adaptable. So, if 
there is a new intelligence stream that comes in, we can very 
quickly, or CBP can very quickly change their targeting and 
identify cargo that might be associated with a newly identified 
threat.
    Senator Coburn. All right. So, here is the question, as a 
common sense Okie, we are saying it is not capable to do 100 
percent screening. Where is the study that says, here is what 
this will cost and here is what this will slow down commerce? 
Has that been done?
    Mr. McAleenan. A number of studies in that regard have been 
done, and I would offer the GAO might want to comment, as well. 
We have done a study and provided several papers to Congress 
estimating up to $16 billion in costs. The European Union has 
done a study. The private sector has done several studies.
    The challenge is, sir, there are 800 or so initial ports of 
lading for containerized cargo destined for the United States, 
an average of three to five lanes per port, an average of five 
million to implement this kind of system prior to lading in 
each lane, and that scope just makes it very challenging to get 
to that level. There are a lot of questions on who pays, who is 
responsible, how it is monitored, and so forth.
    Senator Coburn. So, if you take the RAND study, even though 
it is dated now, and say, if one sneaks in and you have the 
tragedy that they spoke about at the Port of Los Angeles, 
estimating a trillion-dollar effect on our GDP, $16 billion 
does not seem that great. So, where do we go, GAO?
    Mr. Caldwell. Senator, thank you. We have done several 
studies on it. As far as the type of study you are asking for, 
the only place I have seen it is in a recommendation we have 
made. I think that CBP and the Department would have been 
better off if, at that point, they just said, OK, we will do 
the required feasibility study. This would have included a 
cost-benefit analysis. CBP could have done it then and tried to 
put this thing to bed, or at least show what those tradeoffs 
are. Certainly, there have been multiple small pieces of 
analysis, so I feel bad. Because I think the Department, in all 
the little pieces of analysis they have done since then, have 
almost gotten there.
    I would also like to stop to talk about one popular myth. 
The 
9/11 Commission Report never called for the 100 percent 
scanning of maritime cargo.
    Senator Coburn. What did they call for?
    Mr. Caldwell. They called for 100 percent scanning of air 
cargo. The report said almost nothing about ports and maritime 
security.
    Senator Coburn. OK. That is great to know.
    Mr. Caldwell. But, moving on, we do think the challenges to 
100 percent scanning are likely insurmountable. The SAFE Port 
Act left a lot of things undefined, and I think through the 
pilots, CBP tried to understand what those undefined things 
would actually be in terms of cost, and who does it.
    But, there is also a concern that it would create a false 
sense of security. You could scan a container. If it is done 
within a customs regime that we trust, a port terminal that we 
trust, then we have some confidence that after the container is 
scanned and gets on that ship, it is going to be monitored. 
But, a lot of times, we will not have that case. In a lot of 
the cases, because of how ports are laid out, scanning is done 
offsite. If that truck with the container has to drive three to 
five miles to an from the scanner a lot can happen in that 
distance.
    The former Coast Guard Commandant Thad Allen said he 
thought it was more likely that a weapon of mass destruction 
would come in to the United States not through a highly 
regulated regime like containers, but into the United States in 
some small vessel coming in or snuck in some other way.
    I also agree that intelligence will, in the end, be the 
key, to revealing any weapons of mass destruction (WMD) that 
terrorists are trying to smuggle in. I am not sure ATS by 
itself would catch that. They have looked at millions and 
millions of containers and used the risk-based analysis. Yet 
they are still finding contraband, but, it is not like when 
they find drugs in these containers that there is a one-to-one 
match between, we had rated that containers as high-risk. There 
are many cases where they find illegal stuff in containers that 
had gotten through their ATS system, drugs or other contraband.
    Our approach at GAO has been to look at the programs that 
we have. We still would have liked to have seen DHS and CBP do 
that feasibility analysis of 100 percent scanning. At this 
point, we have closed that recommendation as not implemented. I 
think that is water under the bridge. We would like to see CBP 
doing better with the programs we have, recognizing that we are 
not going to have a perfect system. One improvement would be 
optimizing your targeting system, which means that you are 
monitoring it on a regular basis. You are testing it to see how 
it is doing. Another improvement is having the best CSI 
footprint you can in terms of some of the CSI program focusing 
on high-risk ports. If not, maybe CBP should pack up and shake 
hands with those partners. Those partners will keep helping us, 
but CBP could move some of those CSI operations to other ports.
    Senator Coburn. Do you have specific recommendations on 
ports from the GAO?
    Mr. Caldwell. Yes, we do. We have a recommendation that CBP 
use the port risk model they had used in 2009 to initially plan 
the 100 percent scanning, or a similar type model to figure out 
what ports they should actually be in. We tried to reproduce 
that type of analysis and found that about 12 of the CSI ports 
CBP was in were low-risk ports. More than half of the CSI ports 
were in high-risk ports. We recognize that there are some ports 
that are not going to let us in. I mean, you have some nasty 
players out there that are not going to let a joint U.S. 
program into their ports--I am not at liberty to disclose 
details of individual ports, but there is movement in terms of 
additional CSI ports, both opening and closing.
    Senator Coburn. OK. Let us go back to grants and the tiered 
port system for a minute. If we are not doing analysis on 
progress, do we reevaluate the ports in terms of tiers? Here is 
tier one, tier two, tier three, tier four. Is that done 
routinely? Yearly? Biannually? How often do we reanalyze high-
risk ports, one? No. 2 is, without the metrics, but they are 
getting better, how do we take what we have improved and 
measure it to show a decreased risk for a tier one port so that 
the dollars that you have can go to where the risks are the 
greatest?
    Mr. Kamoie. Thanks for the question, Senator. We reassess 
the risk of the Nation's ports every year, and we use the risk 
formula that incorporates the most recent data we have 
available on threat, vulnerability, and consequence. And, there 
have been times where changes in that risk data have resulted 
in the changes in the grouping of ports. For example, last 
year, in fiscal year 2013, there are eight tier one ports. San 
Diego had a change in its relative risk formula, because these 
are relative to one another, and so this year, it is not a tier 
one port. So, we are making those adjustments. We work very 
closely with the Department's Intelligence and Analysis unit to 
populate the risk formula with the most recent data. So, yes, 
we are looking at that continually.
    Your second question, as to what the measurement and, 
really, what I would consider to be buying down of that risk 
and the vulnerability, I agree, we have some progress to make 
there in terms of agreement on measurements and metrics to show 
that progress, and show it in a way, and when the Chairman 
comes back, his question was about how can the Congress help, 
and here, I think, my ask of the Chairman and you, Senator, is 
that we have a continued dialogue about the types of data that 
would enable you to have more confidence and the American 
people have more confidence that we are making that progress 
and that we are being effective stewards of the taxpayer 
dollars. I agree with you that we certainly have made progress 
and we have plenty of good examples, but we would like to 
continue to work with you to get at the data and the 
measurement that would show that in a more compelling way.
    Senator Coburn. Each port has a Port Security Plan, right?
    Mr. Kamoie. Yes.
    Senator Coburn. All right. Has Homeland Security done an 
analysis of what the total cost would be to bring it up, on a 
cost-effective benefit, how much total for all the tier one 
ports would we need to spend to bring them to where they need 
to be? Do we have that? Do we know that?
    Mr. Kamoie. I am not aware of that analysis----
    Senator Coburn. Well, that is----
    Mr. Kamoie. We will have to followup.
    Senator Coburn. That is an important question, because if 
you do not know what they need, we will never get there, and--
--
    Mr. Kamoie. Well, so, I mean, we certainly, at the Captain 
of the Port level----
    Senator Coburn. I know you know where the weaknesses are, 
and I know that is where the grant money is going, but I am 
saying, in the big picture----
    Mr. Kamoie. Sure.
    Senator Coburn [continuing]. If we are going to spend $100 
million this year on Port Security Grants, and the total bill 
for bringing our tier one ports is $2.5 billion, we are 12\1/2\ 
years from bringing them, and by that time, you are going to 
have replacement needs. So, the question is, do we not think it 
is important to really know by port, here is the total cost to 
get us where we want you, and which one, out of those top eight 
ports, which one has the greatest vulnerability basis and 
should we not be spending maybe $70 million at one port and $30 
million at the other eight on the basis of what the total need 
is to bring them to that level where we feel confident?
    Mr. Kamoie. Sure. We will absolutely take a close look at 
that. We have moved the entire suite of grant programs toward 
performance measurement against the core capabilities that are 
in the National Preparedness Goal, following up, implementing 
Presidential Policy Directive 8 on National Preparedness. We 
continue to find the performance measures for those. But, we 
are through the threat hazard identification and risk 
assessment process. We are asking grantees to do a lot of what 
you are talking about in terms of identifying capabilities and 
then using the investments to close the capability gaps.
    So, we are moving in that direction, but I am not aware of 
a single analysis where we have put a price tag on, by port, 
what it would take to close the gap in every port against one 
level, but we will certainly take a look at that.
    Senator Coburn. Well, I just think that would be really 
important to know, because you are going to have limited 
funds----
    Mr. Kamoie. Yes.
    Senator Coburn [continuing]. From here on out. It is not 
going to change. And, sending the dollars where this is all 
risk-based, right?
    Mr. Kamoie. Yes.
    Senator Coburn. Sending the dollars where the greatest risk 
is should be our priority. So, I would just recommend you look 
at that. I do not know if the GAO has any comments on that or 
not----
    Mr. Kamoie. Senator, if I might, we will take a close look 
at that. I think the threat hazard identification risk 
assessment process and the Area Maritime Security Working 
Groups at the port level, I think they are getting at a lot of 
that. But, I agree with you. We could make even more progress.
    Admiral Thomas. If I could, on two of your points: The 
first had to do with how do you account for risk bought down 
with previous grant money in determining the risk ranking for 
the next--we actually do that as part of the Coast Guard's 
Maritime Security Risk Assessment Model that GAO mentioned. If 
we have invested in a system that reduces the vulnerability or 
mitigates the consequences of an attack on a facility, it gets 
reflected in our model. That data is part of the risk formula 
that DHS then uses to determine the tiers for the next year. 
So, it is in there.
    The other piece that you asked about is have we defined 
what a secure port is and when will we know that we get there. 
That is an interesting question. What I can tell you, though, 
as a Captain of Port, is I watched the initial focus be on 
securing individual facilities, so, let us make sure we have 
fences and cameras and guards and Radiation Portal Monitors 
(RPMs) and get facilities.
    And then I saw it evolve to, well, we need to really secure 
this port as a system, as well, so how do we link these fences 
together? So, we invested in things like communications systems 
that will allow everyone--and surveillance systems that were 
focused on the common infrastructure, not on the private sector 
infrastructure.
    And, we said, well, that is good, but have we been able to 
address what we are going to do if we get attacked and we need 
to recover? So, we invested in trade resumption plans.
    And so it has been a natural evolution. I believe we are 
still in that evolution because we have emerging threats such 
as cyber. I think the next round of grants is putting money 
toward cyber vulnerability assessments so that we can then 
understand what it is going to take to secure the cyber 
infrastructure of the maritime--I do not know that we will ever 
be able to say we are there, but I do see a very logical 
progress on how we focused our planning and our investment.
    Senator Coburn. We have a diagnostic system for cyber 
within Homeland Security. Is the TWIC system applicable to that 
system?
    Mr. Sadler. Let me take that one, sir.
    Senator Coburn. Yes.
    Mr. Sadler. So, right now, the way the TWIC system works is 
that the contractor provides the enrollment equipment and then 
they connect to a system that eventually gets back to TSA, and 
that system, whether it is on the enrollment side, the data 
center side, up to the TSA side, is built to Federal standards. 
They have to go through a certification and accreditation. They 
go through auditing. They go through testing. So, it is not 
monitored within the DHS system. It is monitored through the 
TSA operations center. So, everything from the contractor's 
data center practices----
    Senator Coburn. You have answered my question. Got it. Mr. 
Sadler. OK. Thank you.
    Chairman Carper. [Presiding.] I would like to come back and 
ask Mr. Kamoie, Mr. Sadler, and Mr. Caldwell to answer my 
earlier question, please.
    Mr. Kamoie. Absolutely, Mr. Chairman.
    Chairman Carper. And then, just so you will know, the next 
question I am going to ask of all of you is what do we need to 
do? What is our ``to do'' list on this Committee and in the 
Congress to make sure we continue to make progress? Thank you.
    Mr. Kamoie. Absolutely, Mr. Chairman.
    Chairman Carper. All right. Mr. Kamoie.
    Mr. Kamoie. My ask of you and the Committee is for 
continued dialogue--and I shared this with Ranking Member 
Coburn before he stepped out--a continued dialogue about the 
types of data and the types of measures that would give you the 
confidence, give the American people the confidence that we are 
investing the grant dollars in a way that is most efficient and 
most effective and that we are all good stewards of these 
resources.
    I agree with Admiral Thomas. The threat is evolving. So, 
too, have our measurement of where we are headed next. So, I 
would appreciate a continued dialogue with you about how we 
define the measures of success that will give you the 
confidence that we are all looking for.
    Chairman Carper. OK. Thanks.
    Mr. Sadler, something for our ``to do'' list to help 
continue to make progress.
    Mr. Sadler. I think it is just continued support and 
helping us get, from TSA's point of view, the readers out, and 
the Coast Guard's point of view, understanding that the Coast 
Guard is promulgating the rule, but there were a lot of things 
that had to happen before they got to the point where they can 
do that. So, when I say we need the readers, we need the 
readers. That is not in any way insinuating that there is some 
delay on the rules side. There was a lot of work that went into 
getting to this point. So, we would ask for the continued 
support so we could put readers in place, we could buy down 
some risk, we can use the full capabilities of the card.
    And, I think, to the Admiral's point before, it is critical 
that we maintain mission focus. It is also critical that we 
make risk-based decisions so we protect the right areas. And 
then for our look at it, it is data quality, it is identity 
verification, it is reduction in fraud, it is ensuring that the 
right people get the card and the right people keep the card 
after it has first been issued.
    Chairman Carper. All right. Thank you. Mr. Caldwell.
    Mr. Caldwell. So, I am going to provide a combo answer 
because I am still trying to answer the question you asked 
before, I have three things, two for the agencies to do and one 
for the Committee to do.
    First off is for agencies keeping the programs flexible. 
The Coast Guard is trying to make their infrastructure security 
patrols less predictable so you improve the level of 
deterrence. I like what I see at CBP as well when they are 
doing what they call their quayside or dockside scanning. In 
such cases a ship will come in and CBP will target that ship. 
It will not be based on whether the containers are high-risk or 
not. CBP will be scanning every seventh one or tenth one 
container coming off. They could be a little more flexible in 
CSI and the footprint they have and think about whether they 
need to shift that footprint a little bit to cover different 
countries and ports, if possible.
    I think cyber is the growing area. That is an area where 
DHS and the Coast Guard have been monitoring the situation, and 
they are talking about taking action. We will have a report we 
are issuing tomorrow for the Senate Commerce Committee that 
will have a lot more detail on that.
    And then something for this Committee, and I think it is 
starting to show up on the radar of the agencies. We do have to 
sustain current equipment. You have vessels and you have 
scanners and you have aircraft that are pretty important in 
this security regime. This is true particularly in terms of 
some of the interdiction and the deterrence missions and just 
the daily things like scanning containers. Some of these assets 
are reaching the end of their life. I know that CBP is trying 
to extend the range of their scanners from, say, 10 years to 13 
years. But, at some point, you are going to have to replace 
them. Now that you have built this security regime and all the 
things that go with it; sustainability will translate into 
resource requirements just to keep what we have.
    Chairman Carper. OK. The last three witnesses have pretty 
much sort of gotten to my last question, which was, what is our 
``to do'' list? And, I do not know that, Ms. McClain, you and 
Admiral Thomas and Mr. McAleenan had a chance to do that. Our 
``to do'' list--do you----
    Ms. McClain. Chairman, I think I just echo some of the 
points that were made earlier and emphasize that in moving 
forward, anything we do needs to take into consideration that 
DHS confronts a multitude of threats. And so to be cost 
effective and efficient, we need to always bear that in mind.
    I think the second point we made earlier is that, big 
picture, we must focus security across all pathways, to buy 
down risk, we do not want to encourage sort of a balloon effect 
where we put all our security assets over here and the agile 
adversary just circumvents that. So, the picture has to be 
across all pathways.
    And then echoing Mr. Caldwell's point about support to 
address the aging infrastructure and funding DHS in accordance 
with the President's budget. Thank you.
    Chairman Carper. OK. Thanks.
    Admiral Thomas, anything you have that we should be doing 
on the legislative side.
    Admiral Thomas. Thank you, Chairman. I do not have much to 
add to what has been said. There may be some very specific 
authorities and capabilities that we identify as we continue to 
analyze the threat in the ports, but I think we have the right 
access through the staffs to get that information to you.
    I would say that this type of oversight and continued focus 
by this Committee on this issue is really important to stave 
off that complacency that I am concerned about, so we do 
appreciate that.
    Chairman Carper. Thank you.
    Mr. McAleenan. Four quick things, echoing several things 
that Mr. Caldwell mentioned. We need continued support for the 
key programs we have discussed today, the Automated Targeting 
System, CSI, and we are actively working on the recommendations 
that Mr. Caldwell mentioned.
    Recapitalization and sustainment of our critical 
technology, radiation detection equipment and Non-Intrusive 
Inspections, along with the Domestic Nuclear Detection Office, 
we will be working with your team on those plans.
    Three, what you articulated at the beginning, Mr. Chairman, 
understanding the critical economic, expeditious, and 
facilitated movement of cargo aspect of our mission. That 
continues to be critical and needs to be understood.
    And then, four, working with the Secretary and the 
Department on an agreed path forward on scanning, keeping us 
honest on the good faith efforts you identified and we 
discussed today, but also working together on the best 
framework for the future.
    Chairman Carper. Good. Thanks.
    I think Dr. Coburn, when I was out voting, asked a question 
dealing with fiduciary agents, and I just want to come back 
and--he asked part of my question. I just wanted to come back 
and say the second half of the question. Maybe you all could 
take a shot at it. I need to be someplace else, in 8 minutes, 
so whoever would--Brian, I am going to ask you to take the shot 
at this one----
    Mr. Kamoie. Absolutely----
    Chairman Carper. Rather than ending the use of fiduciary 
agents for all ports, why not let ports decide for themselves 
if they would like to use one?
    Mr. Kamoie. We have considered that proposal and do not 
think it is in the best interests of the program if some are 
using fiduciary agents and others not. I mean, the benefit we 
have derived by moving away from the fiduciary agent model is, 
as the appropriations have gone down and our capabilities 
internally have grown in terms of program oversight, 
management, and monitoring, we have gotten a pretty good window 
into the project level data and the approach grantees are 
taking. And, we lost some of that visibility, as you might 
expect. There was a variety of performance, varying levels of 
performance across the fiduciary agent model.
    And then the other thing is with the management and 
administration fee, the fiduciary agents had access to 3 to 5 
percent of the funds. We think those funds are better invested 
in actual security projects.
    So, I know that there is a range of opinions in the port 
community about the fiduciary agent model, but we have decided 
that the best thing for the most effective and efficient 
management of the program is to bring that management in-house 
and not use the fiduciary agent model.
    Chairman Carper. OK. Thanks.
    And, this last question would be for Ms. McClain, Admiral 
Thomas, and Mr. McAleenan. Really short answers, if you would. 
The first question is, what effect has increased security along 
our land borders had on maritime border security? Ellen, if you 
could just take 30 seconds.
    Ms. McClain. Yes, Mr. Chairman. Two quick points. I think 
the Trusted Trader Programs that we developed in the land 
border context informed how we deal with those programs in the 
maritime context.
    And, second, I think it pointed out to us, and I will 
quickly go back to South Florida in the 1980s, how you need a 
risk-based approach across all pathways to secure any single 
pathway. Thank you.
    Chairman Carper. Thank you. Admiral.
    Admiral Thomas. Well, somewhat outside of the realm of port 
security, but certainly, we have seen the balloon effect on 
particularly the Southern part of the West Coast and also in 
the Caribbean. As we secure our land borders for illegal drugs 
and contraband and other illegal activities, they have taken to 
the water, and so we have adjusted our forces and that is 
really the impact that we have seen there.
    Chairman Carper. OK. Thank you.
    Mr. McAleenan. I agree with the Admiral. We have not seen a 
significant impact in terms of changes in the threat within 
commercial flows. We have seen the effect of security between 
ports of entry push activity out into the littorals on the West 
Coast as well as up through Puerto Rico.
    Chairman Carper. OK. There is a second half to that 
question, but I do not have time to ask it. You may not have 
time to answer it.
    I am just going to wrap it up here. I am really glad that 
Dr. Coburn encouraged us to have this hearing. This is timely. 
There is a fair amount of progress to be reported on and there 
is still plenty of work to do. I am encouraged that the sense 
of team is at play, and that certainly helps, and we are part 
of that team. But, thank you all for your preparation today, 
for coming and helping to make this a very great hearing.
    It is clear to me that one of the most important take-aways 
from today's hearing is that it is critically important that we 
strike the right balance. It is not an easy thing to do. It is 
easy to say, but it is hard to do, strike the right balance 
between security, trying to make sure we do not unduly impede 
the flow of transportation and trade. As we all know, what did 
we say, 95 percent of our trade moves on the water, but the 
port surge is vital to our Nation's well-being and they are a 
conduit for a lot.
    With that, I am going to call a halt to this. Some of my 
colleagues are going to have some questions to ask, and we may 
have some ourselves, so the hearing record will remain open for 
15 days. That is until June 19 at 5 p.m., for the submission of 
statements and questions for the record.
    With that, I would say to our Republican staff and our 
Democrat staff and all my colleagues, thank you very much for 
your help in this, and to each of you for joining us today. I 
think one of you, it was maybe you, Admiral, said oversight is 
a good thing, and we hear that a lot, so we will not disappoint 
you. Thanks so much.
    With that, we are adjourned. Thank you.
    [Whereupon, at 12:27 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
